U.S. Department of Agriculture
 Office of Inspector General
       Midwest Region
         Audit Report

   FOOD AND NUTRITION SERVICE
      CHILD AND ADULT CARE
         FOOD PROGRAM
 OPPORTUNITIES INDUSTRIALIZATION
  CENTER OF GREATER MILWAUKEE
      MILWAUKEE, WISCONSIN




               Report No.
               27099-22-CH
               FEBRUARY 2002
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                        Midwest Region - Audit
                                  111 North Canal Street - Suite 1130
                                       Chicago, IL 60606-7295
DATE:         February 27, 2002

REPLY TO
ATTN OF:      27099-0022-Ch

SUBJECT:      Child and Adult Care Food Program – Opportunities Industrialization
              Center of Greater Milwaukee, Wisconsin

TO:           Theodore O. Bell
              Regional Administrator
              Food and Nutrition Service
              77 West Jackson Boulevard, 20th Floor
              Chicago, IL 60604

ATTN:         Frank Suchy
              Accountant


This report presents the results of our audit of the CACFP as administered by the
Opportunities Industrialization Center of Greater Milwaukee. The response to the
official draft report, dated February 14, 2002, is included as exhibit C, with excerpts and
the Office of Inspector General’s position incorporated into the Findings and
Recommendations section of the report.

Based on the response to the official draft report, we have reached management
decisions on Recommendations Nos. 6, 7, 8, 9, 10, 11, 12,13, and 16. Please follow
your agency’s internal procedures in forwarding documentation for final action to the
Office of the Chief Financial Officer. We have not reached management decision on
Recommendations Nos. 1, 2, 3, 4, 5, 14, and 15. Management decisions on these
recommendations can be reached once your have provided us with the additional
information outlined in the report section, OIG Position.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation
of those recommendations for which management decision has not yet been reached.
Please note that the regulation requires a management decision to be reached on all
findings and recommendations within a maximum of 6 months from report issuance.



     /s/
EDWARD R. KRIVUS
Regional Inspector General
                      EXECUTIVE SUMMARY
                CHILD AND ADULT CARE FOOD PROGRAM
               OPPORTUNITIES INDUSTRIALIZATION CENTER
                       OF GREATER MILWAUKEE
                       MILWAUKEE, WISCONSIN
                           REPORT NO. 27099-22-Ch


                                    This audit report presents the results of our
     RESULTS IN BRIEF               audit of the Child and Adult Care Food
                                    Program (CACFP) as operated by the
                                    Opportunities Industrialization Center of
         Greater Milwaukee (OIC-GM).        The objective of our audit was to
         determine whether OIC-GM’s claims for reimbursement were correct and
         whether its operational and administrative costs were supported and
         appropriate. We performed our audit at the request of the Food and
         Nutrition Service Midwest Regional Office.

           Our review disclosed problems in both administrative costs and meal
           claims.

           Administrative costs were inflated by questionable lease arrangements.
           By entering into less-than-arms-length leases for kitchen equipment,
           delivery vans, and rental space, OIC-GM used a device to increase its
           CACFP funding beyond actual program costs. Although regulations limit
           costs in transactions where one party is able to substantially control the
           other party, OIC-GM leased its own equipment back from its fully owned
           subsidiary at rates that would nearly double the cost of the equipment over
           the terms of the leases. We similarly found that the corporation from
           which OIC-GM leased its office space shared its officers and board of
           directors with OIC-GM and charged the organization rental fees that were
           higher than comparable costs.

           For Fiscal Year (FY) 2000, OIC-GM’s leases for kitchen equipment, vans,
           and rent cost the CACFP over $111,000 in excess costs. If allowed to run
           their full terms, the leases will cost the program about $359,000 in excess
           costs for the vans and equipment, and an additional $53,000 a year for the
           rental space.

           OIC-GM’s monitoring of child care centers in FY 2001 did not ensure the
           propriety of CACFP meal claims. The sponsor did not perform 112 of the
           393 monitoring site visits required by regulations for FY 2000. We
           reviewed the monitoring checklist and determined that some significant

USDA/OIG-A/27099-22-Ch                                                         Page i
            CACFP operations were not identified to be reviewed. The supervisors
            did not track the work of the monitors to verify that the required number of
            monitoring visits was performed. Also, the review forms did not require
            reviews of critical items such as participant enrollment eligibility, or meal
            accountability systems. Because of inadequate monitoring by OIC-GM,
            the following deficiencies were allowed to occur:

               Half of the centers (13 of 26) we visited claimed excessive meals for
               reimbursement.

               One center claimed lunches for children who were in school at the time
               and did not participate in the meal service.

               Over 3,100 meals were served to ineligible children during May 2000.

            Excessive reimbursements for the months we reviewed totaled $8,840.

            We also found that OIC-GM did not follow Federal or State regulations
            covering procurement of food and supply items for the program. OIC-GM
            did not purchase items under a sealed-bid procedure and did not complete
            written contracts with the vendors selected to supply the items. Thus,
            there is no assurance that OIC-GM purchased items for use in the CACFP
            at the best possible price.

                                      We recommend that FNS and the State
  KEY RECOMMENDATIONS                 Agency require OIC-GM to (1) recover the
                                      $111,000 paid for unallowable lease charges
                                      for kitchen equipment, vans, and rent and
         return this amount to the food service account, (2) return excessive real
         estate rental costs to the food service account, and (3) refund $8,840 for
         excess reimbursements for meals served to ineligible participants.

            To improve its operations, we are recommending that OIC-GM
            (1) properly register all children who participate in the program,
            (2) implement a point-of-service meal accountability system at all of its
            sites, (3) make the required number of site visits per year, and (4) submit
            written procurement procedures for approval.

                                        In its response dated February 14, 2002, FNS
     AGENCY RESPONSE                    agreed with all of the findings and
                                        recommendations, and both FNS and the
                                        State     agency    are    currently   taking
            corrective actions.




USDA/OIG-A/27099-22-Ch                                                           Page ii
                                       Based on the corrective actions being taken
        OIG POSITION                   by FNS and the State agency, we have
                                       reached      management     decisions    on
                                       Recommendations Nos. 6, 7, 8, 9, 10, 11, 12,
          13, and 16. Management decisions can be reached on the remaining
          recommendations once FNS has provided OIG with the additional
          information outlined in the report section OIG Position.




USDA/OIG-A/27099-22-Ch                                                     Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION..........................................................................................................iii
TABLE OF CONTENTS................................................................................................iv
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................4
   CHAPTER 1 ...............................................................................................................4
   QUESTIONABLE LEASE ARRANGEMENTS BY THE SPONSOR RESULTED IN
   UNNECESSARY COSTS TO THE CACFP................................................................4
   FINDING NO. 1 ..........................................................................................................4
   RECOMMENDATION NO. 1 ......................................................................................7
   RECOMMENDATION NO. 2 ......................................................................................8
   FINDING NO. 2 ..........................................................................................................8
   COSTS OF RENTAL SPACE WERE EXCESSIVE....................................................8
   RECOMMENDATION NO. 3 ....................................................................................10
   RECOMMENDATION NO. 4 ....................................................................................11
   RECOMMENDATION NO. 5 ....................................................................................11
   CHAPTER 2 .............................................................................................................13
   OIC-GM HAS NOT PROVIDED ADEQUATE OVERSIGHT OF ITS SPONSORED
   CENTERS ................................................................................................................13
   FINDING NO. 3 ........................................................................................................13
   RECOMMENDATION NO. 6 ....................................................................................15
   RECOMMENDATION NO. 7 ....................................................................................15

USDA/OIG-A/27099-22-Ch                                                                                                 Page iv
 FINDING NO. 4 ........................................................................................................16
 RECOMMENDATION NO. 8 ....................................................................................17
 RECOMMENDATION NO. 9 ....................................................................................17
 FINDING NO. 5 ........................................................................................................17
 RECOMMENDATION NO. 10 ..................................................................................19
 RECOMMENDATION NO. 11 ..................................................................................19
 RECOMMENDATION NO. 12 ..................................................................................20
 FINDING NO. 6 ........................................................................................................20
 RECOMMENDATION NO. 13 ..................................................................................21
 RECOMMENDATION NO. 14 ..................................................................................22
 CHAPTER 3 .............................................................................................................23
 OIC-GM DID NOT USE FEDERAL PROCUREMENT PROCEDURES ...................23
 FINDING NO. 7 ........................................................................................................23
 RECOMMENDATION NO. 15 ..................................................................................24
 CHAPTER 4 .............................................................................................................25
 THE SPONSOR USED AN INDIRECT COST RATE THAT WAS NOT APPROVED
 BY THE COGNIZANT AGENCY ..............................................................................25
 FINDING NO. 8 ........................................................................................................25
 RECOMMENDATION NO. 16 ..................................................................................26
 EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................27
 EXHIBIT B – LIST OF OIC-GM SITES VISITED BY OIG AND ...............................28
 PROBLEMS NOTED................................................................................................28
 EXHIBIT C – FNS’ RESPONSE TO THE DRAFT REPORT ....................................30




USDA/OIG-A/27099-22-Ch                                                                                           Page v
                            INTRODUCTION

                                    The U.S. Department of Agriculture’s Child
       BACKGROUND                   and Adult Care Food Program (CACFP) was
                                    implemented in 1968 to provide nutritious
                                    meals to children of low-income working
         parents. In 1989, the program was expanded to include older adults as
         well as children. The CACFP is administered at the Federal level by the
         Food and Nutrition Service (FNS) through its regional offices. The
         regional offices are responsible for authorizing State agencies to
         administer the CACFP through sponsoring agencies at the local level.
         The State agency for Wisconsin is the Wisconsin Department of Public
         Instruction, Community Nutrition Programs.

           FNS regional offices (FNSRO), through State agencies, provide
           reimbursement for meals to sponsoring organizations for food service
           operations that meet specified nutritional requirements. Child care centers
           must be public, private nonprofit, or for-profit child care centers with at
           least 25 percent of their enrollment or licensed capacity receiving Title XX
           funds. In addition, child care centers must possess the applicable
           Federal, State, or local license or must meet local approval standards to
           provide day care services. Child care centers may operate the CACFP
           independently or under a sponsoring organization.                Sponsoring
           organizations such as Opportunities Industrialization Center of Greater
           Milwaukee (OIC-GM) act as liaison between the child care centers and the
           State agency and are ultimately responsible for program operations in the
           child care centers they sponsor.

           Each sponsor collects meal count data; reviews, approves, and prepares
           a consolidated monthly claim for the child care centers under its control;
           and submits the claim to the State agency. The sponsor receives
           reimbursement for meals served to qualified participants. Participants’
           eligibility category is determined from program applications where they are
           classified as free, reduced-price, or full-price (paid) depending on income
           categories. In addition, sponsors are also responsible for training facility
           staff and monitoring their meal service operations and the nutritional
           makeup of the meals served to ensure compliance with program
           requirements.

           OIC-GM is a not-for-profit Wisconsin corporation organized to provide
           vocational training, counseling, assessment, and placement services to
           unemployed or underemployed individuals. In October 1999, OIC-GM

USDA/OIG-A/27099-22-Ch                                                         Page 1
           began to participate in the CACFP by providing meals to day care and
           after-school centers in the capacity of a central kitchen. The number of
           centers under the sponsorship of OIC-GM varied each month during
           FY 2000. In May 2000, the sponsor delivered meals to 81 day care
           centers and 10 at-risk centers with an average daily attendance at the day
           care centers of 3,020 for 97,531 meals served and an average daily
           attendance for the at-risk center of 211 and 3,576 snacks served. For
           FY 2000, OIC-GM received reimbursement of $1,265,386 for
           970,418 meals claimed.

                                    The objectives of this audit were to determine
        OBJECTIVES                  if claims submitted to the State agency by
                                    OIC-GM were correct and supported, and if
                                    OIC-GM’s operational and administrative
         costs were appropriate. We performed our audit at the request of the
         Food and Nutrition Service Midwest Regional Office (FNSRO).

                                       The scope of our audit was FY 2000 program
            SCOPE                      operations; however, we reviewed selected
                                       months in FY 2001 as deemed appropriate.
                                       We performed audit work at the Wisconsin
           Department of Public Instruction in Madison, Wisconsin, and at the
           Opportunity Industrialization Center of Greater Milwaukee’s offices in
           Milwaukee, Wisconsin. To accomplish the scope of the audit, we
           reviewed sponsor records for administrative and program costs for
           FY 2000. We also tested claims data at the sponsor’s office for the month
           of May 2000. We selected the month of May in FY 2000, because it was
           the last full month of the fiscal year to be representative of that year’s
           operations.

           Besides reviewing sponsor records, we performed site visits to sponsored
           centers during the months of February and March 2001 to evaluate their
           FY 2001 operations. In FY 2001, the sponsor delivered meals to
           91 centers. We judgmentally selected 26 of these for visits. We also
           reviewed the January 2001 weekly report for a 27th center, as well as its
           October 2000 monthly claim and visited this center to confirm a
           discrepancy in its October 2000 claim.

           We conducted the audit in accordance with Government Auditing
           Standards as established by the Comptroller General of the United States.




USDA/OIG-A/27099-22-Ch                                                       Page 2
                                     To accomplish the audit objectives we:
       METHODOLOGY

                   Reviewed Federal and State regulations,             policies   and
                   procedures relating to the CACFP;

                   interviewed SA personnel and obtained the most recent
                   monitoring review of OIC-GM;

                   interviewed OIC-GM officials and reviewed documentation at
                   OIC-GM’s offices in Milwaukee, Wisconsin;

                   reviewed documentation supporting claims for reimbursement of
                   meals claimed and examined support for operating and
                   administrative costs. These included claims, invoices, receipts,
                   cancelled checks, bank statements, enrollment forms, operating
                   licenses, menus and training, and monitoring records;

                   judgmentally selected 27 centers operated by OIC-GM, as of
                   May 2000, and completed a comprehensive file review to test
                   the accuracy of the sponsor’s claims.

                   examined the CACFP accounting records to determine whether
                   the accounting system was sufficient and whether CACFP funds
                   were used for allowable purposes; and

                   visited 27 child care centers to observe operations and to verify
                   attendance.




USDA/OIG-A/27099-22-Ch                                                        Page 3
            FINDINGS AND RECOMMENDATIONS

                  QUESTIONABLE LEASE ARRANGEMENTS BY THE
CHAPTER 1         SPONSOR RESULTED IN UNNECESSARY COSTS TO
                  THE CACFP

            The sponsor used less-than-arm’s-length lease arrangements as a device
            to improperly increase its CACFP funding beyond actual program costs.
            Lease payments for kitchen equipment, delivery vans, and rental space
            were made to related parties who charged more than the original cost for
            equipment or who based rental rates on property that was not comparable
            to the space provided.

            With the start of FY 2000, OIC-GM became a sponsor for the CACFP and
            needed to acquire the equipment, transportation, and space necessary to
            prepare and deliver meals to centers under its sponsorship. To acquire
            the kitchen equipment and vehicles, OIC-GM entered into two separate
            lease agreements with its for-profit subsidiary, Opportunities Investment
            Associates (OIA). OIA and OIC-GM share the same personnel and office
            space. To acquire space, the sponsor entered into a third lease
            agreement with yet another related corporation. Since the leases were
            between corporations that shared officers and/or board members with the
            sponsoring organization, we concluded that none of these leases qualified
            as arm’s-length transactions and were consequently subject to Federal
            regulations limiting costs and rates.

            We determined that the questionable leases cost the CACFP over
            $111,000 in excess costs for FY 2000. If allowed to run their full terms
            and continued to be charged to CACFP, the leases will cost the program
            about $359,000 in excess costs for the kitchen equipment and vans, and
            an additional $53,000 a year for the rental space.

                                       The leasing contracts for FY 2000 between
       FINDING NO. 1                  OIC-GM    and OIA for kitchen equipment and
                                      food delivery vans set payment rates that
   KITCHEN EQUIPMENT AND              were greater than the cost of the equipment
 VEHICLES WERE LEASED BACK            being leased.      OIC-GM and OIA officials
  TO THE SPONSOR FOR MORE             stated  that they  believed they could charge
   THAN THEIR TOTAL COST              the higher amount despite Federal regulations
                                      that limit rental costs between a corporation
          and its subsidiary. For FY 2000, the negotiated contracts will cost CACFP
          an additional $74,748 in program costs.

USDA/OIG-A/27099-22-Ch                                                       Page 4
           We reviewed OIC-GM’s 1999 financial statements that had been prepared
           by its certified public accountant. We determined that OIA was a fully
           owned for-profit subsidiary of OIC-GM.      Consequently, any leases
           between the two corporations would be considered transactions between
           related parties.

           FNS Instruction 796-2, Revisions 2 and 3, define a less-than-arms-length
           lease as one under which one party to the lease agreement is able to
           control or substantially influence the actions of the other. Such leases
           would include those between divisions of an organization and between
           organizations under common control through common officers, directors,
           or members etc. OMB Circular A-122, “Cost Principles for Non-Profit
           Organizations,” Attachment B, 46c further states that rental costs under
           less-than-arms-length leases are allowable only up to the amount that
           would be allowed had title to the property been vested in the organization.
            In other words, the lessor could not charge the lessee more than the
           lessee would have paid had it purchased the property itself.

              Kitchen Equipment Lease

              OIC-GM purchased kitchen equipment from a vendor for use in
              preparing meals for centers participating in the CACFP with OIC-GM
              as their sponsor. OIC-GM would act as a central kitchen for the
              centers under its sponsorship. Correspondence between the vendor of
              the kitchen equipment and an OIC-GM executive disclosed that OIC-
              GM, not OIA, had solicited bids for the kitchen equipment.          The
              correspondence informed the vendor that theirs was the successful bid
              for supplying the equipment and further specified the place of delivery.
              Three checks, dated September 27, 1999, January 14, 2000, and
              June 1, 2000, were written to the vendor on OIC-GM’s checking
              account totaling $318,939 as full payment for the equipment, including
              delivery costs.

              On September 27, 1999, OIA executed a contract with OIC-GM
              allowing OIC-GM to lease from OIA the same kitchen equipment that
              OIC-GM had purchased. Between the purchase date and the contract
              date, ownership of the equipment had been transferred from OIC-GM
              to OIA. We found no evidence that the for-profit subsidiary paid the
              nonprofit sponsor any sum for the transfer. OIC-GM officials could not
              provide us with documentation showing that the equipment had been
              legally transferred to OIA; and, since OIC-GM paid the full purchase
              cost, we could not verify that OIC-GM, not OIA, was in fact the owner
              of the equipment.



USDA/OIG-A/27099-22-Ch                                                        Page 5
              The contract stipulated that OIC-GM would lease the kitchen
              equipment for 10 years at a rate of $5,000 per month. The value of the
              lease for this 10-year period would be $600,000, or
              $281,061 ($600,000 - $318,939) in excess of the sponsor’s original
              purchase price of the equipment. According to Federal requirements,
              the sponsor should have recovered the cost of the equipment by
              depreciating it over its usable life. Transferring the property to a
              subsidiary does not release the sponsor from this requirement, since
              the equipment in this less-than-arm’s-length transaction would have to
              be treated as property vested in the sponsor. Insofar as the sponsor
              paid the full cost of the kitchen equipment, the cost of the equipment
              may still be recovered through depreciation. Even though ownership
              of the kitchen equipment may technically reside with the subsidiary, we
              concluded that the lease itself represented an unnecessary cost. The
              cost of the lease for its first year, FY 2000, was $60,000.

              Vehicle Lease Contract

              On September 1, 1999, OIC-GM acquired seven delivery vans to use
              to transport prepared meals to the centers participating in the CACFP
              under their sponsorship. The vans cost a total of $131,238, of which
              OIC-GM paid $25,000 (an amount not reflected as a CACFP program
              expense) and OIA paid $106,238. On September 27,1999, the vans
              were leased to OIC-GM by OIA for 5 years at a rate of $500 per month
              per van. Over the life of the lease, the cost to the CACFP would
              amount to $210,000. This represents a $78,762 overcharge to the
              CACFP for the cost of the vans.

              The invoices for the new vans showed that the vans were priced from
              approximately $19,500 to $20,300. Since OIA paid $106,238 of the
              purchase price, it would be entitled to receive rental payments of
              $1,771 per month, or an annual payment of $21,252. This would
              reimburse OIA for its cost in 5 years. The $25,000 paid by OIC-GM
              should be depreciated over the life of the asset.

              During FY 2000, OIC-GM did not pay the full $3,500 per month for the
              seven vans as called for by the leases; according to OIC-GM officials,
              this occurred because of an oversight. Instead, OIA billed and was
              paid by OIC-GM $3,000 per month for an annual cost of $36,000 for
              the 7 vehicles. As a consequence, the overcharge for the vehicles for
              FY 2000 was $14,748 ($36,000 - $21,252).

           An official for OIC-GM said that it was their understanding that the leases
           for the kitchen equipment and the vehicles were valid and could be for
           more than was originally paid for the leased items. The official was aware
           of Federal regulations regarding less-than-arm’s-length transactions but

USDA/OIG-A/27099-22-Ch                                                        Page 6
           stated that they had received legal advice concerning the lease
           arrangements with OIA and regarded the leases as proper.

           We concluded that because OIC-GM holds a controlling interest in OIA
           through shared corporate officers and/or board members, the leases must
           be treated as less-than-arm’s-length transactions between related parties
           and are subject to the regulations governing these types of leases. If
           allowed to run their full terms, the leases will cost the program almost
           $360,000 in excess costs for the vans and equipment.

           FNS Regulation 226.9(c) provides for two methods of reimbursing
           institutions: (1) meals-times-rate payment, or (2) the lesser of the meals-
           times-rate or actual cost. Based on the determination made by the
           Wisconsin State Agency, all centers in that state are reimbursed by the
           meals-times-rate payment method, which entails no month-to-month
           comparison to the costs incurred by the institution for the meal service. As
           a result, we are not recommending that the State agency compute a direct
           overclaim against the sponsor based on the excessive rental and leasing
           payments reported in this finding. However, as noted in the finding, the
           sponsor must return these amounts to the food service account, and use
           any available surplus finds that may result from this to benefit the program
           or reduce the fees charged to participants.


  RECOMMENDATION NO. 1

           Instruct the State agency to direct OIC-GM to limit its charges to CACFP
           for the vehicle and kitchen equipment leases to the amounts allowable
           under the regulations for less-than-arms-length transactions.

           Agency Response

           FNS officials agreed with the recommendation, and State agency officials
           responded that they would restrict lease payments so that the total
           payments made under each lease would not exceed the acquisition cost
           of the leased property. In addition, the State agency agreed to monitor
           lease payments through the collection of a quarterly non-profit food
           service report.

           OIG Position

           To reach a management decision on this recommendation, FNS needs to
           provide us with documentation that the State agency has provided the
           sponsor with written notification of the restriction on the amount of lease
           payments.

USDA/OIG-A/27099-22-Ch                                                         Page 7
  RECOMMENDATION NO. 2

           Instruct the State agency to direct OIC-GM to return $60,000 paid to OIA
           for lease payments on the kitchen equipment and $14,748 for
           overpayments made on the vehicle leases, for a total amount of
           $74,748 improperly charged during FY 2000, to the food service account.
           In addition, instruct the State agency to require the sponsor to return to the
           food service account any such amounts improperly charged subsequent to
           FY 2000.

           Agency Response

           FNS officials agreed with the recommendation, while State agency officials
           stated that they would require the sponsor to return the cited $74,748 in
           excessive lease payments for FY 2000 to the food service accounts. The
           State agency will also require that an independent audit be performed to
           verify the amounts of unallowable costs for years subsequent to FY 2000,
           and require that any such amounts be returned to the food service
           account.

           OIG Position

           To reach a management decision, FNS needs to provide us with
           documentation that the State agency has notified the sponsor of this
           requirement, along with the timeframes for completion of the audit and
           within which the sponsor will be required to return all required funds to the
           food service account.

                                  OIC-GM paid more to rent space than was
    FINDING NO. 2                 charged for comparable space of industrial
                                  property in the area. This occurred because
                                  the leasing agent for the lessor relied on
COSTS OF RENTAL SPACE             incorrect comparable rent studies and incorrect
   WERE EXCESSIVE                 square footage data. We also noted that
                                  officers of the corporate owner of the rental
                                  property (the lessor) were also active or former
       officers of the sponsor organization, thus making it a less-then-arms-
       length transaction.   For FY 2000, the sponsor paid approximately
       $36,350 in excessive real estate rent.

           FNS Instruction 796-2 Revision 2, dated June 1994, states that space
           costs for facilities under less-than-arms-length arrangements may not
           exceed the amount that would have been allowed had the property been

USDA/OIG-A/27099-22-Ch                                                           Page 8
           owned by the institution. Such transactions include, but are not limited to,
           all transactions between related parties. Revision 3 of the Instruction,
           dated May 14, 2001, provides further clarification by stating that allowable
           lease costs in such cases are limited by the amount that results from
           applying a 30-year life expectancy to the property’s acquisition cost less
           the value of the land.

           OIC-GM became a first-time sponsor with the CACFP beginning with
           FY 2000. OIC-GM was to be the central kitchen for those centers under
           its umbrella as sponsor. In this capacity, OIC-GM needed a facility to
           receive, store and prepare food for the centers under its jurisdiction. The
           lease for the property presently occupied began October 1, 1999. The
           lease indicates that there are 17,900 square feet being rented for an
           annual rental of $144,000 for a period of 7 years. The leasing agent for
           the lessor indicated in a memo to OIG that comparable rent factors were
           used to determine the rate for the lease, and that these resulted in a lease
           rate of $6.13 per square foot for 20,635 square feet.

           We noted, however, that the sponsor and the corporate property owner
           shared a substantial number of officers, which could result in common
           control of both entities. We found these relationships:

              The leasing agent for the corporate owner of the property was on the
              board of directors of OIA. As noted earlier, OIA is wholly owned by
              OIC-GM.

              Three of the five members on the board of directors for the lessor were
              affiliated with OIC-GM and/or OIA, as follows:

              o The former chairman of OIC-GM was the president of the
                corporation that owned the property.
              o The secretary of the leasing corporation is the secretary of OIA and
                the chairman of the board of directors of OIC-GM.
              o The president of OIC-GM is also on the board of directors of the
                real estate corporation.

           As stated in Finding No. 1, a less-than-arms-length lease is identified as
           one under which one party to the lease agreement is able to control or
           substantially influence the actions of the other. Such leases include those
           between organizations under common control through common officers,
           directors, or members etc. We concluded that the lease was in fact less-
           than-an arms-length transaction, and as such, the property should be
           considered as vested in the sponsor. Thus, the provisions of FNS
           Inspection 796-2 relating to less-than-arms-length transactions would
           apply.


USDA/OIG-A/27099-22-Ch                                                         Page 9
           To determine the acquisition cost of the property, we interviewed its
           previous owner who stated that it was sold to the present lessor for a total
           of $500,000. To determine how much of this was attributable to the land
           and how much to the building, we reviewed county tax records that
           indicate that the building accounts for approximately 57 percent of the
           value of the property as a whole. Based on this, the acquisition cost of the
           building could be estimated at $285,000. Over a 30-year life expectancy,
           the maximum amount that the sponsor could charge in leasing costs per
           year is $9,500. Since OIC-GM claimed leasing costs of $127,350 for FY
           2000, this resulted in an excess cost of $117,850 for the first year.

           The lease calls for payments of $144,000 per year, so for the remaining
           6 years of the lease OIC-GM could be expected to claim a total of
           $864,000. However, based on the above, the maximum OIC-GM could
           claim is $57,000, for a projected overclaim of $807,000. Thus, the total
           projected overclaim for the 7-year term of the lease would be $924,850.

           It should be noted, however, that OIC-GM officials also stated that they
           made alterations to the property in order to prepare it for program use.
           Depreciation of these costs, which according to a State agency official
           may total $1.4 million, could potentially offset a portion of the overclaims if
           the State determines that any of these qualify as additions to the $500,000
           acquisition cost. FNS and the State agency will need to obtain the
           necessary information from the sponsor and the other involved parties to
           make this determination.


  RECOMMENDATION NO. 3

           Direct the State agency to require OIC-GM to return $117,850 in
           excessive rental costs to the food service account for FY 2000. In
           addition, determine the excess rental costs for FYs 2001 and 2002, and
           require that these also be returned to the food service account.

           Agency Response

           FNS officials agreed with the recommendation, while the State agency
           agreed to require the sponsor to return the cited $117,850 to the food
           service account. The State agency will also require that an independent
           audit be performed that will determine the amount of any related
           overpayments subsequent to FY 2000, and require that any such amounts
           also be returned to the food service account.


           OIG Position

USDA/OIG-A/27099-22-Ch                                                           Page 10
           To reach a management decision, FNS needs to provide us with
           documentation that the State agency has notified the sponsor of this
           requirement, along with the timeframes for completion of the audit and
           within which the sponsor will be required to return all required funds to the
           food service account.


  RECOMMENDATION NO. 4

           Direct the State agency to require OIC-GM to amend the budget to have
           the real estate rental costs reflect the rental costs that are allowable under
           FNS Instructions.

           Agency Response

           FNS officials agreed with the recommendation, while State agency officials
           agreed to carefully analyze and approve the sponsor’s budget, ensuring
           compliance with FNS Instruction 796-2, Rev. 3.

           OIG Position

           To reach a management decision on this recommendation, FNS needs to
           provide us with the timeframes within which the agreed-to actions will be
           completed.


  RECOMMENDATION NO. 5

           Direct the State agency to require that OIC-GM have an independent audit
           performed to verify that identified amounts from recommendations nos. 2
           and 3 have been returned to the food service account.

           Agency Response

           FNS officials agreed with the recommendation, while State agency officials
           agreed to require the sponsor to have an independent audit performed in
           order to verify that overpayments have been returned to the food service
           account.




USDA/OIG-A/27099-22-Ch                                                          Page 11
           OIG Position

           To reach a management decision, FNS needs to provide us with the
           timeframes within which the audit is to be completed.




USDA/OIG-A/27099-22-Ch                                             Page 12
 CHAPTER 2        OIC-GM HAS NOT PROVIDED ADEQUATE
                  OVERSIGHT OF ITS SPONSORED CENTERS


           Our review of selected child care and outside-school-hours facilities under
           the sponsorship of OIC-GM disclosed that the sponsor’s monitoring of its
           facilities was ineffective in       assessing compliance with program
           requirements. The sponsor performed fewer than half of the monitoring
           visits required by regulations, and those visits that were performed did not
           provide a review of all significant CACFP operations. Supervisors did not
           track the work of the monitors performing facility reviews and review forms
           did not require reviews of participant enrollment, eligibility, etc.
           Inadequate monitoring by OIC-GM allowed the following deficiencies to
           occur undetected:

               Fifty percent of the 26 centers we visited claimed excessive meals for
               reimbursement for February and March 2001 during which we
               performed our visits.

               One center claimed 246 lunches on its October 2000 claim for children
               who were in school during that month.

               Eligibility determinations made by centers and submitted by the
               sponsor were inaccurate for half of FY 2000. We calculated that over
               3,100 meals were served to ineligible children during May 2000.

           Excessive reimbursements for the 4 months we reviewed totaled $8,840.
           We are recommending that the sponsor prepare written review procedures
           for monitors to follow to ensure their compliance with program regulations.

                                     Eighteen of the 26 centers we visited
       FINDING NO. 3                 (69 percent)     during     February       and
                                     March 2001 claimed ineligible meals for
 AUDIT SITE VISITS DISCLOSED         reimbursement due to inadequate meal
 WEAK CONTROLS OVER MEAL             accountability     systems      and       poor
            CLAIMS                   recordkeeping by site supervisors. In addition,
                                     inadequate monitoring by the sponsor failed to
          identify the problems noted during our visits. As a result, the sponsor
          received $4,587 in excess meal reimbursements during the month
          reviewed. (See exhibit A.)




USDA/OIG-A/27099-22-Ch                                                        Page 13
                 FNS Regulations1 state that institutions should collect and maintain all
                 necessary program records, to include documentation of enrollment of
                 each participant at child care centers and outside-school-hours centers,
                 and to include information used to determine eligibility for free and
                 reduced price meals. FNS Instructions2 further emphasize that meal
                 service records shall support program earnings and that daily records of
                 the reimbursable meals served to participants, taken at point of service,
                 must be maintained for each meal service. Attendance data, by itself is
                 not enough. FNS regulations3 also state that reimbursement may not be
                 claimed for meals served to children who are not enrolled.

                 We visited 26 child care centers under the sponsorship of OIC-GM and
                 reviewed the centers’ and the sponsor’s meal accountability system. We
                 selected claims for February and March 2001 to verify the meals claimed
                 for reimbursement. We obtained weekly site reports, which were prepared
                 by site officials, and we compared the number of program meals that were
                 served to children to daily attendance records maintained at the site.

                 The centers’ meal count records were inadequate and did not show meals
                 by type served to children, did not ensure that meals were claimed only for
                 children who were registered to participate, and did not ensure that meals
                 were claimed only for children who were present during meal service. The
                 sponsor was unaware of any of these deficiencies. Documents for the 18
                 deficient centers showed the following improper claims for the February
                 and March 2001 period:

                     Eight centers claimed meals for children who were not enrolled or who
                     were absent during meal service. Neither the centers nor OIC-GM
                     maintained family income forms and submitted total meal claims that
                     did not reconcile with their daily attendance records for the 2 months.
                     We counted 2,564 ineligible meals claimed by these centers for the
                     2 month period at $4,494.

                     Five centers claimed meals in excess of the meal count observed by
                     the OIG auditors. We counted 47 ineligible meals claimed by these
                     centers, totaling $93, on the days of our visits.

                     Two centers could not serve meals to 28 children on the dates of our
                     visits because they did not have sufficient meals delivered.

                     Six centers served children who were not on their rosters, and claimed
                     the meals for reimbursement.

1
  FNS Regulations 226.15(e)(2) and 226.17(b)(7).
2
  FNS Instruction 796-2 Rev 2 Part IX C.
3
  FNS Regulation 226.17(b)(4).

USDA/OIG-A/27099-22-Ch                                                             Page 14
           We reviewed the OIC-GM monitoring reports for February and
           March 2001. We found that the sponsor had not identified any of the
           deficiencies our audit disclosed. (See Finding No. 6.)

           As a result of the improper claims, the sponsor received $4,587 in excess
           reimbursement.

           It is essential that site personnel complete daily records based on actual
           counts taken at each site for each meal service on each day of operation.
           It is no less important for the sponsor to ensure that an actual point of
           service meal accountability system has been implemented. Accurate
           records are vital to ensure that the sponsor receives all the reimbursement
           payments it is entitled to and that CACFP reimbursements accurately
           reflects program operations.

           To address these problems, the State agency needs to work with the
           sponsor to ensure that an adequate meal accountability system has been
           implemented at all its child care facilities.


  RECOMMENDATION NO. 6

           Direct the State agency to collect $4,587 from OIC-GM for excessive meal
           reimbursements.

           Agency Response

           FNS agreed with the recommendation, and provided a copy of a bill for
           collection to the State agency for the cited amount, payable by
           February 15, 2002.

           OIG Position

           We accept FNS’ management decision.



  RECOMMENDATION NO. 7

           Require the State agency to ensure that the sponsor implements a point-
           of-service meal accountability system that results in accurate meal counts
           and prevents the claiming of meals served to non-enrolled children.


USDA/OIG-A/27099-22-Ch                                                       Page 15
                   Agency Response

                   FNS officials concurred with the recommendation, and the State agency
                   responded that it had addressed this issue with the sponsor as a result of
                   the administrative review conducted in 2001. As a result of this, the
                   sponsor developed a point-of-service meal accountability system and
                   WDPI is currently verifying that these procedures are being followed.

                   OIG Position

                   We accept FNS’ management decision.

                                        One of the centers sponsored by OIC-GM
          FINDING NO. 4                 claimed lunches for school-age children who
                                        were attending school that month and were
     ONE CENTER CLAIMED MEALS           not present during the lunch services. The
     FOR CHILDREN WHO WERE IN           site supervisor could not explain why this
              SCHOOL                    happened. This site was not among the
                                        26 centers we had selected to visit, but came
             to our attention through a review of weekly reports. As a result of the
             inaccurate claim, OIC-GM received excess reimbursement of $534 for 246
             lunches which were not served during the month of October 2000.

                   FNS regulations4 state that each child care institution shall report each
                   month to the State agency the total number of meals by type served to
                   children.

                   We reviewed the day care weekly reports for October 2000, the only
                   month for which a voucher was submitted by OIC-GM for FY 2001. The
                   report showed that one child care center had claimed lunches for school-
                   age children who would normally be in school for lunch. We went to the
                   center and determined through observation, interview and review of the
                   center’s records that 12 school-age children were reported as having
                   received lunch. We reviewed the October 2000 monthly claim, which was
                   the only claim submitted for FY 2001 as of our review date, and
                   determined that the center had claimed 246 lunches served to 12 school-
                   age children. The director of the center agreed that the children had been
                   in school that month and had not been served lunches. The sponsor’s
                   claim for October 2000 was overclaimed by 246 lunches, resulting in an
                   overreimbursement of $534.




4
    See 7 CFR Part 226.11(d).

USDA/OIG-A/27099-22-Ch                                                              Page 16
  RECOMMENDATION NO. 8

           Require the SA to collect $534 from OIC-GM for excessive meal
           reimbursements.

           Agency Response

           FNS agreed with the recommendation, and provided a copy of a bill of
           collection for the cited amount to the State agency, payable by
           February 15, 2002.

           OIG Position

           We accept FNS’ management decision.


  RECOMMENDATION NO. 9

           Direct the State agency to instruct the sponsor to implement edit checks of
           monthly claims and supporting documents submitted by institutions under
           its administration, to ensure that only meals served to eligible children are
           claimed.

           Agency Response

           FNS officials agreed with the recommendation, and the State agency
           responded that the sponsor developed the cited edit-checks at the State
           agency’s direction as part of the administrative review conducted in 2001.
           The State agency is currently verifying that the sponsor is adhering to the
           new procedures.

           OIG Position

           We accept FNS’ management decision.

                                       The sponsor did not have the centers under its
        FINDING NO. 5                  administration obtain completed household
                                       size and income information forms so that
  SPONSOR’S CONTROL OVER               children could be properly registered and
     INCOME ELIGIBILITY                classified correctly in their needs categories.
    APPLICATIONS NEEDS                 This occurred because the sponsor did not
       IMPROVEMENT                     properly register children for the program. As
                                       a consequence, OIC-GM submitted claims for

USDA/OIG-A/27099-22-Ch                                                         Page 17
                    reimbursement that did not accurately account for meals served to eligible
                    children. From a limited review of only 14 centers, we determined that
                    the sponsor received $3,719 in excess reimbursement for 3,134 meals
                    served to ineligible children during the month in which the eligibility
                    determinations were made.

                    FNS Regulations5 state that centers shall collect and maintain
                    documentation of the enrollment of each child, including information used
                    to determine eligibility for free and reduced price meals. The regulations6
                    also state that reimbursement may not be claimed for meals served to
                    children who are not enrolled.

                    Each year, child care centers participating in the CACFP recertify the
                    eligibility of children in attendance at the centers. Eligibility is based on
                    household size and income, and allows for three categories: free,
                    reduced-price, and non-needy. For FY 2001, the most current eligibility
                    information was contained in household size and income forms submitted
                    in May 2000.

                    At the sponsor’s office, we reviewed the children’s household size and
                    income information forms for 27 of 91 centers under the sponsor’s
                    administration in May 2000. We compared the information on the forms to
                    the May 2000 monthly registration report, which lists the registered
                    children and their eligibility category as determined by sponsor personnel.
                    When we found incomplete forms or missing forms, we categorized those
                    children as non-needy. When we found forms in which the sponsor had
                    incorrectly categorized children, we identified the correct category.

                    We also compared the children on the May 2000 monthly registered report
                    to the children claimed on the weekly meal service records for 14 of the 27
                    centers reviewed for enrollment mix. We considered children who were
                    not on the monthly registered report, but included as being served on the
                    weekly meal service report, to be ineligible because they were not
                    properly registered by the centers. Meals served to these children are not
                    eligible for reimbursement.

                    We calculated the eligible reimbursement to the sponsor using our
                    enrollment mix percentages and deducting the ineligible meal
                    reimbursement for meals served to the ineligible children at the
                    14 centers. Our calculations (using both the percentages and the
                    deductions) show that OIC-GM received $3,719 in excess reimbursement
                    for 3,134 meals served to ineligible children for May 2000.


5
    The regulations appear in 7 CFR Part 226.15(e)(2).
6
    See 7 CFR Part 226.16(d).

USDA/OIG-A/27099-22-Ch                                                                  Page 18
           The May 2000 enrollment report would have been valid for the last half of
           FY 2000 and the first half of FY 2001, up to the time of the enrollment
           report for the following year. Consequently, the percentages would apply
           to claims over a 12-month period. For the 12 months of FY 2000, the
           sponsor claimed over 970,000 meals. However, because enrollment may
           vary throughout the year, we only applied the enrollment percentages to
           the month in which the enrollment determinations were made.


 RECOMMENDATION NO. 10

           Require the State agency to collect $3,719 from OIC-GM for excess meal
           reimbursements.

           Agency Response

           FNS concurred with the recommendation, and issued a bill for collection
           for the cited amount, with payment due by February 15, 2002.

           OIG Position

           We accept FNS’ management decision.


 RECOMMENDATION NO. 11

           Require the State agency to instruct the sponsor to initiate controls that
           corroborate that household and income information have been adequately
           reviewed.

           Agency Response

           FNS officials agreed with the recommendation, and the State agency
           responded that the sponsor was required to develop the cited procedures
           as a part of the 2001 administrative review. The State agency is currently
           in the process of verifying that the sponsor is adhering to the new controls.

           OIG Position

           We accept FNS’ management decision.




USDA/OIG-A/27099-22-Ch                                                         Page 19
     RECOMMENDATION NO. 12

                   Direct the State agency to require the sponsor to properly enroll all
                   children who participate in the program.

                   Agency Response

                   FNS agreed with the recommendation, while the State agency responded
                   that the sponsor was required to develop the cited controls as part of the
                   2001 administrative review conducted by the State agency. The State
                   agency is currently verifying the sponsor’s adherence to the new
                   procedures.

                   OIG Position

                   We accept FNS’ management decision.

                                          OIC-GM performed fewer than the required
           FINDING NO. 6                  number of site visits to its day care facilities,
                                          and monitors who did perform site visits used
     OIC-GM DID NOT ADEQUATELY            review forms that were not adequate to ensure
        MONITOR ITS DAY CARE              sufficient review of the centers’ food programs.
              FACILITIES                   The number of visits was insufficient because
                                          the supervisors did not oversee the work of
              the monitors to verify that the required number of monitoring visits was
              performed. Also the review forms, when used, did not contain coverage of
              important program areas. As a result, problems at the centers and
              program irregularities were not found and corrected in a timely manner.

                   FNS regulations7 state that each sponsoring organization shall provide
                   adequate supervision for effective monitoring of the program at all centers
                   under its jurisdiction. At a minimum, the sponsor shall review food service
                   operations to assess compliance with meal patterns, recordkeeping, and
                   other program requirements. Such reviews shall not be performed less
                   frequently than three times a year for day care centers or six times a year
                   for outside-school-hours centers and at-risk centers.

                   The sponsor had 6 employees performing monitoring duties for the 81 day
                   care centers and outside-school-hours centers under its administration in
                   FY 2000. Through reviews of employee pay and time reporting records
                   and interviews, we determined that the monitors spent on average
                   30 minutes per visit at small sites and 1.5 hours per visit at large sites.

7
    See 7 CFR Part 226.16 (d).

USDA/OIG-A/27099-22-Ch                                                               Page 20
           Based on the time spent per visit and the number of required visits by site
           (three visits to day care centers and six visits to outside-school-hours
           centers), we determined that the sponsor had adequate personnel to
           perform the required number of reviews at all centers. However, we also
           noted that the monitors, not a supervisor, were responsible for scheduling
           their own reviews. For FY 2000, the monitors performed 281 of the
           393 required site visits. The monitors failed to schedule and perform
           112 site visits at the active 81 sites.

           For sites that were visited, OIC-GM monitors did not adequately review
           food service programs onsite because the review forms they followed did
           not cover all pertinent program areas. The forms specifically did not
           require monitors (1) to collect license and enrollment information, (2) to
           review lists of approved meal types per site, (3) to determine whether the
           sites were within licensed capacity, (4) to determine whether participating
           children were properly enrolled, (5) to ensure that corrective actions from
           prior problems had been taken, (6) to reconcile the children’s names on
           enrollment worksheets to the names on enrollment forms, and (7) to
           compare the meal count or attendance during the visit to the prior period.

           We selected 12 of the 26 sites visited by OIG auditors in February and
           March 2001 and compared OIG findings at these sites to OIC-GMs’
           monitor reviews made to the same sites during FY 2000. The OIG
           auditors found deficiencies at 7 of the 12 sites; the OIC-GM monitors
           found none. During their site visits the OIG auditors found that there were
           no family income forms, that children who were not registered were
           receiving meals, and that attendance during the day of the site visits was
           low compared to prior periods. Since the OIC-GM’s monitoring form is
           inadequate, these areas were not documented as being covered during
           the monitors’ visits, and no problems in these areas were noted.


 RECOMMENDATION NO. 13

           Instruct the State agency to review the OIC-GM monitor review form and
           require the sponsor to include all important program review areas on the
           form.

           Agency Response

           The State agency has approved new sponsor monitor-review forms, and is
           currently in the process of verifying that the sponsor is correctly utilizing
           the new forms.

           OIG Position

USDA/OIG-A/27099-22-Ch                                                         Page 21
           We accept FNS’ management decision.


 RECOMMENDATION NO. 14

           Instruct the State agency to provide training to OIC-GM monitors on how
           to perform monitoring reviews, and to require OIC-GM to prepare and
           provide written review procedures to ensure that monitors are making the
           required number of site visits per year in accordance with CACFP
           requirements and are following up to ensure sites are taking corrective
           actions to findings.

           Agency Response

           FNS concurred with the recommendation, and the State agency
           responded that it had addressed monitor training and monitoring
           procedures as part of the 2001 administrative review. The sponsor has
           developed monitoring procedures as part of the corrective actions from
           this review, and the State agency is currently verifying that the sponsor is
           following these procedures.

           OIG Position

           To reach a management decision, FNS needs to provide us with
           timeframes for the State agency to complete its training of the sponsor’s
           onsite monitors.




USDA/OIG-A/27099-22-Ch                                                        Page 22
                                     OIC-GM DID NOT USE FEDERAL
     CHAPTER 3                       PROCUREMENT PROCEDURES




                                             The sponsor’s contracting procedure for the
               FINDING NO. 7                 procurement of food and food service supplies
                                             did not meet Federal or State agency
                                             procurement standards. The sponsor did not
                  always select vendors based on sealed bids and did not require written
                  contracts with the vendors it selected. As a result, there is the potential
                  that vendors did not supply the sponsor with products at the most
                  economical rates. Those potentially higher costs to the food program, if
                  decreased, could be used to increase meal quality or reduce the meal
                  charges to program participants.

                    FNS regulations8 state that a sponsor shall establish procurement
                    procedures that provide that sponsor officials shall review proposed
                    procurement actions. The sponsor shall maintain records sufficient to
                    detail the significant history of procurement. Those records shall include
                    selection of contract type.

                    Wisconsin Department of Public Instruction Guidance Memorandum
                    No. 4 states that procurement procedures for the purchase of goods and
                    supplies of $10,000 or more annually shall follow competitive sealed bid
                    procedures. Those procedures require that a contract be awarded to the
                    low bidder, if responsive and responsible. Subsequent to our audit period
                    (in May 2001), the State updated Guidance Memorandum No. 4 to
                    increase the threshold to $100,000.

                    We interviewed sponsor personnel and reviewed the sponsor’s written
                    procurement procedures for food and food service supplies. From these
                    sources, we determined that the food service manager is responsible for
                    preparing the bid package, sending the bid package to potential
                    bidders/vendors, receiving the bid package from the vendors, reviewing
                    the vendors’ responses, and determining which vendors to purchase from.
                    There are no sealed bids, and the successful bidders are informed by
                    telephone. There are also no written contracts between the sponsor and
                    its vendors.

8
    See 7 CFR Part 226,22 (e) and (k).

USDA/OIG-A/27099-22-Ch                                                               Page 23
           We selected a judgmental sample of six vendors who supplied the
           sponsor with food and food service supplies in FY 2000 in order to
           document the procedure presently in use to purchase food. We selected
           these vendors because they accounted for the largest food-related
           purchases made by the sponsor for that fiscal year. The purchases from
           each vendor ranged from $19,800 to $204,000 and totaled $ 346,942.

           The procurement procedures required by Federal regulations and by the
           Wisconsin Department of Public Instruction in Guidance Memorandum No.
           4 are to ensure that there is free and open competition which will ensure
           that the best possible product or service has been purchased at the best
           price. OIC-GM has a food vendor register that is comprised of vendors
           soliciting business, staff recommended vendors and/or vendors
           recommended by other vendors.

           The food manager sends out bid packages every 3 months to those
           businesses on the vendor register for food that will be needed in the
           ensuing months. The food manager receives and reviews the responses
           and also selects the vendors that will be used. With no second party
           review of the vendor selection and with no written contract, the sponsor
           may have potentially received supplies at a higher cost to the program
           than might otherwise have been available. With a reduction in costs, the
           extra funds could be used for increasing meal quality or reducing meal
           costs to participants.


 RECOMMENDATION NO. 15

           Require the State agency to instruct the sponsor to develop and submit
           written procurement procedures that meet both Federal and State
           program requirements.

           Agency Response

           FNS officials agreed with the recommendation, and stated that they are
           currently working with the State agency to reach a management decision.

           OIG Position

           To reach a management decision, FNS needs to provide us with its time-
           phased plan to implement the recommendation.




USDA/OIG-A/27099-22-Ch                                                     Page 24
   CHAPTER 4             THE SPONSOR USED AN INDIRECT COST RATE
                         THAT WAS NOT APPROVED BY THE
                         COGNIZANT AGENCY



                                       OIC-GM charged the CACFP for indirect costs
        FINDING NO. 8                  that had not been reviewed or approved by a
                                       qualified cognizant agency.          Instead of
                                       sending the indirect cost rate to the Wisconsin
           Department of Work Force Development (the cognizant agency), OIC-GM
           submitted it directly to the Wisconsin Department of Public Instruction
           along with its CACFP cost claims. We concluded that indirect costs
           identified in the sponsor’s budget as totaling $184,000 are questionable
           charges to the program.

           OMB Circular A-122, “Cost Principles for Non-Profit Organizations,” states
           that a nonprofit organization which has not previously established an
           indirect cost rate with a Federal agency shall submit its initial indirect cost
           proposal immediately after the organization is advised that an award will
           be made and, in no event, later than 3 months after the effective date of
           the award.

           OIC-GM began its participation in the CACFP in October 1999, the start of
           FY 2000, and had not established an indirect cost rate with a Federal
           agency before that time. Consequently, OIC-GM should have submitted a
           proposed indirect cost rate no later than January 2000 to the Wisconsin
           Department of Work Force Development, the largest provider of funds to
           OIC-GM through the Welfare to Work Program.

           We found that OIC-GM developed its own indirect cost rate but failed to
           submit it to the cognizant agency for approval. In the budget plan
           submitted to the Wisconsin Department of Public Instruction for
           FY 2000 for the CACFP, OIC-GM claimed $184,000 in indirect costs.
           Because the rate that produced this cost was never approved, we
           question the allowability of the cost. OIC-GM needs to submit its indirect
           cost rate and all supporting documentation to the Wisconsin Department
           of Work Force Development for approval of the rate or for adjustments, as
           needed.




USDA/OIG-A/27099-22-Ch                                                           Page 25
 RECOMMENDATION NO. 16

           Instruct the State agency to require OIC-GM to submit its indirect cost rate
           to the cognizant agency for approval. Also, instruct the State agency to
           disallow any indirect costs included in the sponsor’s budget until this has
           been done.

           Agency Response

           FNS officials agreed with the recommendation, and the State agency
           responded that upon release of the audit report, it would take action to
           disallow all indirect costs until the cognizant agency documents approval
           for the indirect cost rate. From that point on, the sponsor’s indirect costs
           will be restricted to the rate approved by the cognizant agency.

           OIG Position

           We accept FNS’ management decision.




USDA/OIG-A/27099-22-Ch                                                        Page 26
EXHIBIT A – SUMMARY OF MONETARY RESULTS
       FINDING
         NO.      DESCRIPTION       AMOUNT         CATEGORY
          1      Sponsor paid       $ 60,000   Funds To Be Put To
                 excessive rental              Better Use
                 for kitchen
                 equipment
           1     Excessive          $221,061   Funds To Be Put To
                 kitchen rental                Better Use
                 costs through
                 end of lease
                 period
           1     Sponsor paid       $ 14,748   Funds To Be Put To
                 excessive                     Better Use
                 vehicle lease
                 costs
           1     Excessive          $ 64,014   Funds To Be Put To
                 vehicle rental                Better Use
                 costs through
                 end of lease
                 period
           2     Excessive          $117,850   Funds To Be Put To
                 space rental                  Better Use
                 costs paid by
                 Sponsor
           2     Excessive          $807,000   Funds To Be Put To
                 space rental                  Better Use
                 costs through
                 end of lease
                 period
           3     Sponsor            $ 4,587    Questioned Costs
                 received excess               Recovery
                 reimbursement                 Recommended
           4     Sponsor            $   534    Questioned Costs
                 received excess               Recovery
                 reimbursement                 Recommended
           5     Sponsor            $ 3,719    Questioned Costs
                 received excess               Recovery
                 reimbursement                 Recommended
           8     Indirect costs     $184,000   Funds To Be Put To
                                               Better Use




USDA/OIG-A/27099-22-Ch                                              Page 27
EXHIBIT B – LIST OF OIC-GM SITES VISITED BY OIG AND
            PROBLEMS NOTED

                         (1)       (2)           (3)        (4)          (5)        (6)
                                                                       MEALS
                                             RECORD       INCOME      CLAIME
       NAME OF       NOT ON                  S NOT UP   ELIGIBILITY     D IN
         SITE        ROSTE         LOW       TO DATE    FORMS NOT     EXCESS    TOO FEW
                      R AT     ATTENDANC        AT      ON FILE AT      OF       MEALS
                     CENTER    E AT CENTER   CENTER      SPONSOR      SERVICE   ORDERED
1     Sherman
      Park
 2    E.M. Jones
*3    Taylor         X                                                X
      Home
*4    Providence               X             X
      Baptist
      Church
*5    Jackie
      Robinson
*6    Urban                                                           X
      Waldorf
*7    Giese                                                                     X
      School
*8    Martin                                                          X
      Luther King
*9    35th Street              X
      School
 10   Allen Chapel                                                    X
*11   Pierce                                                                    X
      School
12    Kid’s Korner
      North
 13   Betty’s I
 14   Betty’s III    X                                  X
*15   Garden         X         X                        X
      Homes
*16   Granville      X                                  X
      School
*17   Hampton                                           X
      Ave. School
*18   Jerusalem
      Baptist
19    Tiny Tunes               X

USDA/OIG-A/27099-22-Ch                                                     Page 28
                       (1)         (2)           (3)             (4)          (5)         (6)
                                                                            MEALS
                                             RECORD            INCOME      CLAIME
       NAME OF      NOT ON                   S NOT UP        ELIGIBILITY     D IN
         SITE       ROSTE         LOW        TO DATE         FORMS NOT     EXCESS    TOO FEW
                     R AT     ATTENDANC         AT           ON FILE AT      OF       MEALS
                    CENTER    E AT CENTER    CENTER           SPONSOR      SERVICE   ORDERED
20   Teachable                                           X
     Moments
*21 Incarnation
     Lutheran
 22 Sallie’s                                                               X
     Loveland
*23 Northcott      X         X                           X
     Neighbor-
     hood
*24 Washington X             X               X           X
     Park
 25 Guardian
     Angel
     Learning
     Center
 26 King Drive                               X           X
     Day Care
          18       6         6               3           8                 5         2
      CENTERS
         WITH
     PROBLEMS
*Outside School Hours Center

We determined that 18 of the 26 centers reviewed had problems, as noted below:

1) Six centers served children who were not on their rosters.
2) Six centers had low attendance on the date of the visit compared to the period prior
   to the visit.
3) Three centers had meal count and/or attendance records that were not up to date.
4) Eight centers did not have income forms on file with the sponsor. These centers
   served 2,564 meals, reimbursed for $4,494, during the period of our review.
5) Five centers claimed 47 meals reimbursed for $93.14 in excess of the meal count
   observed by the OIG auditors.
6) Two centers did not serve 28 children because they did not have sufficient meals
   delivered.




USDA/OIG-A/27099-22-Ch                                                          Page 29
EXHIBIT C – FNS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/27099-22-Ch                          Page 30
USDA/OIG-A/27099-22-Ch   Page 31
USDA/OIG-A/27099-22-Ch   Page 32
USDA/OIG-A/27099-22-Ch   Page 33
